                 The Innocent Spouse Centralized Review
                    Function Ensured Accurate Relief
                   Determinations, but Improvements
                    Could Increase Customer Service

                                     May 2005

                       Reference Number: 2005-40-075




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                         May 2, 2005


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



      FROM:                          Pamela J. Gardiner
                                     Deputy Inspector General for Audit

      SUBJECT:                       Final Audit Report - The Innocent Spouse Centralized
                                     Review Function Ensured Accurate Relief Determinations,
                                     but Improvements Could Increase Customer Service
                                     (Audit # 200440020)

      This report presents the results of our review of the Innocent Spouse Centralized
      Review function. The overall objective of this review was to determine whether the
      Innocent Spouse Centralized Review function effectively monitors, measures, and
      improves the quality of work in relief determinations.1
      In summary, married taxpayers who file a joint tax return are jointly and individually
      responsible for the tax and any interest and penalties due on their joint return. This
      liability continues on the jointly filed returns even if the taxpayers later divorce. One
      spouse can be held responsible for all the tax, interest, and penalties due even if the
      other spouse earned all the income. Relief determinations focus on protecting the
      spouse who signed a joint tax return without the knowledge of specific items on that
      return and became personally liable for the errors of the other spouse. This protection
      also covers the spouse who reported the proper amount of income on a joint return and
      was led to believe by the other spouse that the taxes were being paid.
      The Innocent Spouse Centralized Review function assesses and measures the quality
      of the examiner determinations made on taxpayer relief claims using quality attributes2
      that encompass the general standards of accuracy, professionalism, and timeliness.
      This process is designed to ensure taxpayers that apply for relief receive accurate, fair,


      1
        Our review focused on the adequacy of the determination process for those cases that met the basic relief eligibility
      qualifications. It did not include an assessment of the accuracy of the “first-read” screening process or the case
      closing process.
      2
        An attribute represents a task an employee is required to perform to do his or her job correctly.
                                                         2

and consistent determinations. We found examiners made accurate determinations in
100 percent of the 128 closed quality-reviewed cases we sampled.
During Fiscal Year (FY) 2004,3 6,555 taxpayers were granted full or partial relief from
approximately $117.6 million in tax assessments. The examiners and managers, in
concert with the quality reviewers, ensured these determinations were fair, equitable,
and accurate. In addition, examiners generally provided taxpayers with timely
preliminary and final determination letters, avoiding unnecessary delays and efficiently
processing additional taxpayer information.
However, Innocent Spouse Program management did not effectively use quality review
data to improve customer service and reduce taxpayer burden. The Innocent Spouse
Centralized Review function found examiners did not always address all the issues
raised by taxpayers, address other open Internal Revenue Service (IRS) issues, or send
taxpayers the required interim contact letters. The quality review results reports indicate
consistently high error rates for these three quality attributes for almost all of FY 2004.4
If examiners do not properly address all taxpayer or IRS issues while cases are open or
do not send out all interim contact letters, these missed opportunities could result in
unnecessary subsequent contacts or problems for the taxpayers. We estimate
potentially 380 taxpayers may not have had all the issues they raised addressed,
142 taxpayers may not have other open IRS issues addressed, and 2,377 taxpayers
may not have received all of the required interim contact letters.5
In addition, the Innocent Spouse Centralized Review function had not always identified
and reported when examiners did not meet the quality attributes required for the
standards of professionalism. Quality reviewers did not always identify and report all
the instances we identified in our sample in which examiners had not used the correct
format, grammar, spelling, punctuation, or letter type in correspondence with taxpayers.
In fact, the Innocent Spouse Centralized Review function results from the period under
review indicated a 92 percent professionalism rate, while we found a 66 percent
professionalism rate on these same issues in our sample. This led to an overstatement
of the professionalism rate and the lost opportunity to correct and improve the quality of
correspondence with taxpayers.
We recommended the Commissioner, Wage and Investment (W&I) Division, require the
Innocent Spouse Operations Manager to periodically assess the effectiveness of
corrective actions taken to address quality standards that warrant improvement. We
also recommended the Commissioner, W&I Division, clarify quality reviewer guidelines
on the issue of professionalism and assess the effectiveness of the current monthly


3
  According to Innocent Spouse Program management, tracking of the FY 2004 Innocent Spouse Program results
began on September 28, 2003, and ended on September 25, 2004.
4
  Due to changes in how the IRS measures case quality and implementation of a new quality review database in
FY 2004, the IRS was able to provide us comparable weekly quality review data covering only the period
November 1, 2003, through September 18, 2004.
5
  These estimates are based on applying our sample error rates to the 6,085 closed taxpayer cases processed by the
Cincinnati Centralized Innocent Spouse Operation during the period of November 1, 2003, through April 10, 2004.
                                           3

case review process for ensuring quality reviewer work is consistently and accurately
recorded and make enhancements, as warranted.
Management’s Response: Management agreed with all three recommendations and
has initiated corrective actions. Specifically:
   •   Management will perform a weekly analysis of the Quality Review Defect Report
       to identify error trends and training needs. Review findings will be tracked and
       shared with the frontline managers to discuss in their weekly employee meetings.
   •   Review guidelines were revised to advise reviewers to charge an error if the
       name, address, tax years, Social Security Number, format, grammar, spelling,
       punctuation, or letter type were incorrect, regardless of whether taxpayers may
       understand the overall intent of the letter. The Innocent Spouse Operations
       Manager now performs a sample review of letters, prior to mailing, to ensure the
       letters are clear and professional.
   •   Management will conduct a semiannual assessment of previously reviewed
       cases to ensure the Quality Reviewers are being consistent and accurately
       applying the quality attributes.
Management’s complete response to the draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (202) 927-0597.
        The Innocent Spouse Centralized Review Function Ensured Accurate Relief
           Determinations, but Improvements Could Increase Customer Service




                                                  Table of Contents


Background ............................................................................................... Page 1
Taxpayers Received Accurate and Timely Relief Determinations............. Page 5
Management Could Enhance the Use of Quality Review Data
to Improve Customer Service and Reduce Taxpayer Burden ................... Page 9
         Recommendation 1: .......................................................................Page 11

Professionalism Errors Were Not Always Identified and
Reported by Quality Reviewers................................................................. Page 11
         Recommendation 2: .......................................................................Page 14
         Recommendation 3: .......................................................................Page 15

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 16
Appendix II – Major Contributors to This Report ....................................... Page 19
Appendix III – Report Distribution List ....................................................... Page 20
Appendix IV – Outcome Measures............................................................ Page 21
Appendix V – Types of Taxpayer Relief .................................................... Page 22
Appendix VI – Attribute Accuracy Rate Comparison ................................. Page 28
Appendix VII – Management’s Response to the Draft Report ................... Page 30
       The Innocent Spouse Centralized Review Function Ensured Accurate Relief
          Determinations, but Improvements Could Increase Customer Service

                                Married taxpayers who file a joint tax return are jointly and
Background
                                individually responsible for the tax and any interest and
                                penalties due on their joint return. This liability continues
                                on the jointly filed returns even if the taxpayers later
                                divorce. One spouse can be held responsible for all the tax,
                                interest, and penalties due even if the other spouse earned all
                                the income.
                                According to the Internal Revenue Service (IRS)
                                publication, Innocent Spouse Relief (and Separation of
                                Liability and Equitable Relief) (Publication 971), a taxpayer
                                can be relieved of responsibility for paying tax, interest, and
                                penalties if his or her spouse (or former spouse) improperly
                                understated1 or underpaid2 the tax. The IRS Restructuring
                                and Reform Act of 19983 liberalized the existing provisions
                                in the law and made it easier for taxpayers to file a claim
                                and qualify for relief. However, the taxpayer is still jointly
                                and individually responsible for any tax, interest, and
                                penalties that do not qualify for relief.
                                In general, taxpayers filing a joint return may request relief
                                from paying tax, interest, and penalties under three different
                                categories. These are innocent spouse relief, relief by
                                separation of liability, and equitable relief. Only equitable
                                relief may be considered for relief for an underpayment,
                                while all three categories may be considered for relief from
                                an understatement. If spouses file separate returns in a
                                community property state, then a spouse may request relief
                                from liability arising from community property law.
                                Each type of relief has several factors the IRS needs to
                                evaluate in order to determine whether to grant or deny the
                                taxpayer relief. For example, to qualify for innocent spouse
                                relief, a taxpayer must establish the following:




                                1
                                  An understatement of tax is generally the difference between the total
                                amount of tax that should have been shown on the tax return and the
                                amount of tax that was actually shown on the tax return.
                                2
                                  An underpayment of tax is an amount of tax the taxpayer properly
                                reported on the tax return but did not pay.
                                3
                                  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                 Page 1
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service

                             •    A joint tax return was filed with an understatement
                                  of tax due to erroneous items of his or her spouse (or
                                  former spouse).
                             •    At the time the taxpayer signed the joint tax return,
                                  he or she did not know, and had no reason to know,
                                  there was an understatement of tax.
                             •    The taxpayer must request relief within 2 years from
                                  the date of the first collection activity involving the
                                  taxpayer after July 22, 1998.
                             •    Taking into account all the facts and circumstances,
                                  it would be unfair to hold the taxpayer liable for the
                                  understatement of tax.
                         A taxpayer can also qualify for relief if he or she reported
                         the proper amount of income on a joint tax return and was
                         led to believe by the other spouse that the taxes were being
                         paid. Married taxpayers who did not file a joint tax return
                         and live in community property states may also qualify for
                         relief. For a more detailed description of the various types
                         of relief available to taxpayers, see Appendix V.
                         Claims for relief received by the IRS are initially screened
                         to determine if the basic qualifications needed to file a
                         claim have been met by the taxpayer. If the claim does not
                         meet the basic qualifications, the claim is rejected at this
                         “first-read” screening and the taxpayer is notified. Only
                         cases that meet the basic qualifications are subjected to
                         further evaluation by an examiner to determine whether the
                         taxpayer qualifies for relief.
                         In the Wage and Investment (W&I) Division, the Director,
                         Reporting Compliance, and the Chief, Headquarters
                         Discretionary Examination, set policy and procedures for
                         the Innocent Spouse Program.4 The Field Director,
                         Compliance Services, at the Andover Campus,5 in concert


                         4
                           The Innocent Spouse Program is responsible for determining if
                         taxpayers qualify for innocent spouse relief, as well as determining if
                         taxpayers qualify for relief by separation of liability, equitable relief, or
                         relief from liability arising from community property law.
                         5
                           The data processing arm of the IRS. The campuses process paper and
                         electronic submissions, correct errors, and forward data to the
                         Computing Centers for analysis and posting to taxpayer accounts.
                                                                                              Page 2
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service

                         with the Innocent Spouse Operations Manager, provide
                         oversight for the Cincinnati Centralized Innocent Spouse
                         Operation (CCISO).
                         The Innocent Spouse Centralized Review function is
                         designed to provide an unbiased, consistent, and accurate
                         review of closed taxpayer relief request cases. Throughout
                         the year, the Centralized Review function selects statistical
                         samples from closed cases that did not meet the basic relief
                         eligibility qualifications (i.e., rejected on first-read
                         screening) and closed cases that were evaluated by
                         examiners.
                         During Fiscal Year (FY) 2004, the Innocent Spouse
                         Centralized Review function selected and reviewed a
                         statistical sample of 380 closed relief request cases out of
                         the claims submitted by 16,994 taxpayers that had been
                         evaluated by examiners. In addition, the Centralized
                         Review function selected and reviewed a statistical sample
                         of 770 closed cases out of the claims submitted by
                         12,223 taxpayers that did not meet the basic relief eligibility
                         qualifications and were rejected on first-read screening.
                         Quality reviewers evaluate the sample cases for specific
                         quality attributes6 that encompass overall standards
                         involving accuracy, professionalism, and timeliness. There
                         are 45 quality attributes used to measure items that directly
                         affect the taxpayer, such as addressing all of the taxpayer’s
                         issues. An additional 21 quality attributes measure items
                         essential to the proper functioning of internal systems and
                         processes, such as meeting all the Internal Revenue Manual
                         (IRM)7 time periods. For the specific quality attributes we
                         analyzed during this review, see Appendix VI.




                         6
                           An attribute represents a task an employee is required to perform to do
                         his or her job correctly.
                         7
                           The IRM contains policy, direction, and delegations of authority that
                         are necessary to carry out IRS responsibilities to administer tax law and
                         other legal provisions.
                                                                                          Page 3
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service

                         Innocent Spouse Program management has established a
                         process to ensure quality reviewers accurately and
                         consistently apply and record the quality attributes. The
                         Innocent Spouse Quality Review Manager reviews every
                         case identified with an error before it is sent back to the
                         originating examiner and his or her group manager for
                         correction. In addition, this Manager reviews two additional
                         cases from each quality reviewer monthly to ensure errors
                         are not being overlooked.
                         The Innocent Spouse Centralized Review function’s quality
                         review results are captured on the Quality Review Database
                         (QRDb), which is used to collect a synopsis of the
                         examiners’ actions and compare those actions to IRS
                         guidelines and procedures. The QRDb produces quality
                         review results reports designed to identify trends that may
                         indicate problem areas, training needs, and opportunities for
                         process improvements.
                         Weekly reports are provided to Innocent Spouse Program
                         management. These reports show the percentage of cases
                         with accurate determinations and list the five quality
                         attributes with the highest number of errors. Monthly
                         cumulative reports showing the overall accuracy,
                         professionalism, and timeliness rates are also provided to
                         Innocent Spouse Program management.
                         According to the IRS Embedded Quality Training Guide,
                         each manager, at every level, is responsible for reviewing
                         quality data for his or her span of control to initiate
                         data-driven organizational and individual improvements.
                         When error trends are identified, this information is shared
                         with all levels of the Innocent Spouse Program to effectively
                         address the problem. Additionally, managers share the
                         quality review results of individual case reviews with the
                         examiner. The Guide stresses these data provide the
                         manager the ability to assemble information as a basis to
                         improve examiner performance. Honest and accurate
                         reviews will help the examiner identify areas where
                         improvement is needed.




                                                                               Page 4
        The Innocent Spouse Centralized Review Function Ensured Accurate Relief
           Determinations, but Improvements Could Increase Customer Service

                                          Figure 1: Innocent Spouse Quality Review Process
                                             for Claims Meeting the Basic Qualifications




                                 Source: Innocent Spouse Program management.

                                 This review was performed at the CCISO in
                                 Florence, Kentucky, during the period June through
                                 December 2004. Our review focused on the adequacy of the
                                 determination process for those claims that met the basic
                                 relief eligibility qualifications and the quality review
                                 process for those claims.8 The audit was conducted in
                                 accordance with Government Auditing Standards. Detailed
                                 information on our audit objective, scope, and methodology
                                 is presented in Appendix I. Major contributors to the report
                                 are listed in Appendix II.
                                 The Innocent Spouse Centralized Review function
Taxpayers Received Accurate
                                 effectively monitored and measured casework quality and
and Timely Relief
                                 timeliness, ensuring examiners provided accurate and timely
Determinations
                                 relief determinations for taxpayers that applied for relief.
                                 Taxpayers received accurate relief determinations
                                 Taxpayers that applied for relief received accurate
                                 determinations in 100 percent of the sample of 128 closed
                                 cases we reviewed; these cases had been quality reviewed
                                 by the Innocent Spouse Centralized Review function
                                 between November 1, 2003, and April 10, 2004. The
                                 process used by the Innocent Spouse Centralized Review
                                 function ensured examiners made fair and consistent relief
                                 determinations. For example:
                                     •    Examiners properly resolved the taxpayer’s case or
                                          issue in 120 (94 percent) of 128 cases. The quality

                                 8
                                   Our review did not include an assessment of the accuracy of the
                                 first-read screening process or the case closing process or an assessment
                                 of the quality review of those processes.
                                                                                                  Page 5
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service

                                 reviewers’ analyses concurred with our results
                                 except in one isolated instance. In addition, none of
                                 the errors identified resulted in an inaccurate relief
                                 determination.
                             •   Examiners properly interpreted and applied the
                                 tax law to resolve the taxpayer’s inquiry in
                                 123 (98 percent) of 125 cases.9 The quality
                                 reviewers had come to the same conclusions during
                                 their reviews.
                             •   Examiners properly prepared workpapers to support
                                 their conclusions in 85 (92 percent) of 92 cases.10
                                 The quality reviewers had come to the same
                                 conclusions during their reviews.
                         Over the past few years, the Director, Reporting
                         Compliance, W&I Division, and the Chief, Headquarters
                         Discretionary Examination, W&I Division, have
                         implemented a number of policies, procedures, and
                         initiatives to enhance the quality of the relief determination
                         process. For example:
                             •   The determination and quality review processes
                                 were centralized to the CCISO. This helped to
                                 ensure cases were consistently worked and allowed
                                 examiners to gain program specific expertise.
                             •   Examiners have begun using Integrated Case
                                 Processing (ICP), which has helped them make more
                                 accurate and consistent determinations. The ICP
                                 contains a checklist of questions and criteria guiding
                                 the examiner and prompting him or her to consider
                                 pertinent aspects of a taxpayer’s case and to
                                 document decisions. The ICP is designed to lead the
                                 examiner to an appropriate determination with fewer
                                 errors.

                         9
                           In 3 of the 128 cases sampled, taxpayers did not respond to the IRS’
                         requests for additional information so the correct tax law could be
                         applied to make the proper determinations on the claims. As a result,
                         this quality attribute applied to only 125 cases in our sample.
                         10
                            In 36 of the 128 cases sampled, workpapers were not required to
                         support the examiners’ conclusions because the claims were denied for
                         not meeting basic relief eligibility qualifications. As a result, this
                         quality attribute applied to only 92 cases in our sample.
                                                                                         Page 6
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service

                              •   Quality reviewers have begun using Smart Data
                                  Collection Instruments (DCI)11 to record the results
                                  of their reviews. The DCIs contain a checklist of
                                  attributes to determine if work was conducted in
                                  compliance with guidelines.
                              •   Experienced examiners from the Innocent Spouse
                                  Program are periodically rotated into the Centralized
                                  Review function to serve as two of the three quality
                                  reviewers. This rotation is planned to occur on a
                                  staggered 18-month cycle.
                         Figure 2 compares the percentage of taxpayers that were
                         granted or denied relief in FY 2004, as well as the dollar
                         amounts for each category.
                          Figure 2: Percentage of Taxpayers Granted Relief or Denied Relief
                             in FY 2004 That Met Basic Relief Eligibility Qualifications12




                         Source: Innocent Spouse Program Analyst.

                         The Innocent Spouse Centralized Review function helped
                         ensure taxpayers appropriately received relief of

                         11
                            The Smart DCI is an electronic data capture document that contains
                         descriptions of the common required tasks for a specific type of work or
                         function.
                         12
                            Figure 2 reflects only those taxpayers that met the basic relief
                         eligibility qualifications; the 12,223 taxpayers that did not meet the
                         basic relief eligibility qualifications during FY 2004 are not reflected.
                                                                                          Page 7
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service

                         responsibility for paying taxes, interest, and penalties when
                         their spouses improperly reported or omitted tax return
                         items. During FY 2004,13 6,555 taxpayers were granted full
                         or partial relief from approximately $117.6 million in tax
                         assessments. The examiners and managers, in concert with
                         the quality reviewers, ensured these determinations were
                         fair, equitable, and accurate.
                         Taxpayers received timely relief determinations
                         Examiners provided taxpayers with an efficient response
                         and a prompt resolution to their issues in 114 (89 percent)
                         of 128 cases we reviewed. Examiners generally met the
                         established IRM criteria by timely providing taxpayers with
                         preliminary and final determination letters. Examiners also
                         avoided any unnecessary delays and processed additional
                         taxpayer information timely. By ensuring taxpayer issues
                         were timely resolved, examiners were able to provide
                         quality customer service and limit taxpayer burden.
                         Although the examiners met IRM time periods and timely
                         processed 89 percent of the cases we reviewed, the Innocent
                         Spouse Centralized Review function did not always identify
                         when examiners did not meet this quality attribute. Quality
                         reviewers had identified only 3 of the 14 instances we
                         identified in our sample where examiners had not processed
                         cases according to IRM time periods or had unnecessary
                         delays. We identified an additional seven cases that were
                         not processed according to IRM time periods and four cases
                         that had unnecessary delays.
                         We could not determine why quality reviewers did not
                         always identify instances when examiners did not meet this
                         timeliness quality attribute. However, because errors were
                         not properly charged, the overall timeliness rate was
                         overstated and Innocent Spouse Program management did
                         not have the opportunity to correct and improve the quality
                         of their program’s timeliness. We estimate potentially




                         13
                           According to Innocent Spouse Program management, tracking of the
                         FY 2004 Innocent Spouse Program results began September 28, 2003,
                         and ended September 25, 2004.
                                                                                     Page 8
         The Innocent Spouse Centralized Review Function Ensured Accurate Relief
            Determinations, but Improvements Could Increase Customer Service

                                  666 taxpayer cases were not processed timely or had
                                  unnecessary delays.14
                                  Examiners did not always follow all of the quality attribute
Management Could Enhance the
                                  standards when assessing a taxpayer’s claim for relief.
Use of Quality Review Data to
                                  Examiners did not always address all of the issues raised by
Improve Customer Service and
                                  taxpayers, did not always address other open IRS issues
Reduce Taxpayer Burden
                                  involved in the case, and did not always send the required
                                  interim contact letters. Each of these three attributes was
                                  not relevant to all of the cases we sampled.
                                       •   In 8 (53 percent) of 15 applicable cases,15 examiners
                                           did not address all the additional issues raised by the
                                           taxpayer.
                                       •   In 3 (75 percent) of 4 applicable cases,16 examiners
                                           did not address all open IRS issues when considering
                                           the case.
                                       •   In 50 (52 percent) of 97 applicable cases,17
                                           examiners did not send all of the interim contact
                                           letters as required by the IRM.
                                  The weekly quality review results reports indicate
                                  consistently high error rates for these three quality attributes
                                  for almost a year. Figure 3 shows the error percentages
                                  from the Centralized Review function’s sample results for
                                  these three attributes for our sample time period and for
                                  most of FY 2004.




                                  14
                                     This estimate is based on applying our sample error rate to the
                                  6,085 closed taxpayer cases processed by the CCISO during the period
                                  of November 1, 2003, through April 10, 2004.
                                  15
                                     Out of the 128 cases in our sample, only 15 taxpayers raised other
                                  issues unrelated to their relief claims that would require examiners to
                                  take additional actions to resolve. For the remaining 113 cases in our
                                  sample, this quality attribute did not apply.
                                  16
                                     Only 4 of the 128 cases sampled had other open IRS issues unrelated
                                  to the relief claims that would require examiners to take additional
                                  actions to resolve. For the remaining 124 cases in our sample, this
                                  quality attribute did not apply.
                                  17
                                     For 97 of the 128 cases sampled, the IRM required the examiners to
                                  issue taxpayers various interim contact letters. For the remaining
                                  31 cases in our sample, this quality attribute did not apply.
                                                                                                  Page 9
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service

                               Figure 3: Percentage of Cases in Which Examiners Did Not
                              Address Additional Taxpayer Issues, Address Other IRS Issues,
                                          or Send All Interim Contact Letters

                              100%



                              75%

                                                                                                58%
                                                                                         54%
                                                                 50%                                          11/1/03-4/10/04
                              50%
                                                41%                                                           Fiscal Year 2004
                                          36%
                                                                       33%

                              25%



                               0%
                                       Additional Taxpayer   Other IRS Issues Not   Not All Interim Contact
                                     Issues Not Addressed        Addressed               Letters Sent

                         Source: Innocent Spouse Centralized Review function weekly quality
                         review results reports for the period November 1, 2003, through
                         September 18, 2004.18


                         Although the Innocent Spouse Operations Manager
                         informed us Innocent Spouse Program managers had taken
                         action on the Centralized Review function results, there
                         were no substantial improvements for these three quality
                         attributes during FY 2004. To ensure steps taken to correct
                         identified problems are effective, we believe managers in
                         the Innocent Spouse Program should be required to
                         periodically assess the effectiveness of their corrective
                         actions.
                         If examiners do not properly address all necessary taxpayer
                         or IRS issues while cases are open or do not send out all
                         interim contact letters, these missed opportunities could
                         result in unnecessary subsequent contacts or problems for
                         the taxpayers. We estimate potentially 380 taxpayers may
                         not have had all the issues they raised addressed,
                         142 taxpayers may not have had other open IRS issues




                         18
                           Due to changes in how case quality is measured and implementation
                         of a new quality review database in FY 2004, the IRS was able to
                         provide us comparable weekly quality review data covering only the
                         period November 1, 2003, through September 18, 2004.
                                                                                                                    Page 10
        The Innocent Spouse Centralized Review Function Ensured Accurate Relief
           Determinations, but Improvements Could Increase Customer Service

                                 addressed, and 2,377 taxpayers may not have received all of
                                 the required interim contact letters.19

                                 Recommendation

                                 The Commissioner, W&I Division, should:
                                 1. Require the Innocent Spouse Operations Manager to
                                    periodically assess the effectiveness of corrective
                                    actions taken to address quality standards that warrant
                                    improvement.
                                 Management’s Response: Management will perform a
                                 weekly analysis of the Quality Review Defect Report to
                                 identify error trends and training needs. Review findings
                                 will be tracked and shared with the frontline managers to
                                 discuss in their weekly employee meetings.
                                 The quality reviewers in the Innocent Spouse Centralized
Professionalism Errors Were
                                 Review function did not always identify and report when
Not Always Identified and
                                 examiners had not met the quality attributes required for the
Reported by Quality Reviewers
                                 standards of professionalism of correspondence.
                                 Quality reviewers did not identify all instances in which
                                 examiners did not use clear and appropriate language
                                 in correspondence
                                 Examiners provided quality customer service by using clear
                                 and appropriate language in correspondence to taxpayers in
                                 119 (93 percent) of 128 cases we reviewed. However, the
                                 Innocent Spouse Centralized Review function had not
                                 always identified and reported when examiners did not meet
                                 this quality attribute. Quality reviewers had identified only
                                 one of the nine instances we identified in which examiners
                                 had not used clear or appropriate language in
                                 correspondence to taxpayers. For example, examiners used
                                 the term “tax tolerance” in a letter to taxpayers without
                                 defining what it meant.
                                 During the period under review, quality review results
                                 indicated examiners had used clear and appropriate
                                 language in correspondence to taxpayers in 98 percent of the

                                 19
                                   These estimates are based on applying our sample error rates to the
                                 6,085 closed taxpayer cases processed by the CCISO during the period
                                 of November 1, 2003, through April 10, 2004.
                                                                                              Page 11
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service

                         cases, while our sample results indicated a 93 percent
                         accuracy rate.
                         Innocent Spouse Program management informed us quality
                         reviewers used criteria different from ours when
                         determining whether to charge an error for unclear or
                         inappropriate language. They believed quality reviewers
                         would charge an error only if the unclear or innappropriate
                         language prevented the taxpayer from understanding the
                         letter or changed the meaning of the letter.
                         This difference in criteria would cause quality reviewers to
                         not identify and report all errors, which would overstate the
                         overall professionalism rate and deny Innocent Spouse
                         Program management the opportunity to improve the
                         quality of taxpayer correspondence. We estimate
                         potentially 428 taxpayers may have received written
                         communications that did not contain clear or appropriate
                         language.20
                         Quality reviewers did not identify all instances in which
                         examiners did not use correct format, grammar,
                         spelling, punctuation, or letter type in correspondence
                         Examiners had not used the correct format, grammar,
                         spelling, punctuation, or letter type in correspondence with
                         taxpayers in 43 (34 percent) of the 128 cases we reviewed.
                         Quality reviewers properly identified and reported 7 of these
                         43 cases. However, quality reviewers did not always
                         identify and report errors such as incorrect format, poor
                         grammar, misspelled words, or incorrect punctuation in all
                         correspondence sent to taxpayers.
                         Innocent Spouse Program management informed us
                         instructions were provided to quality reviewers that, in our
                         opinion, may have affected the accurate reporting of errors.
                         In January 2004, for example, quality reviewers were
                         instructed to not record errors for incorrect format,
                         grammar, spelling, punctuation, or letter type unless the
                         errors affected the taxpayer’s understanding or changed the
                         meaning of the letter. Instead, the quality reviewers were to


                         20
                           This estimate is based on applying our sample error rate to the
                         6,085 closed taxpayer cases processed by the CCISO during the period
                         of November 1, 2003, through April 10, 2004.
                                                                                     Page 12
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service

                         make an informal notation of these errors on the DCI
                         checklists used to assess the cases. This information was
                         then to be provided back to the first-line manager.
                         Examiners had made these types of errors in 36 of the cases
                         we reviewed, but quality reviewers had not identified and
                         notated 27 of them.
                         Although the IRS Embedded Quality Training Guide and
                         DCI guidelines required quality reviewers to record these
                         instances as errors, Innocent Spouse Program management
                         informed us they had instucted their reviewers not to code
                         these errors. Management stated they wanted to be
                         consistent with how they believed the Examination and
                         Collection functions rated this attribute.
                         Innocent Spouse Program management also informed us
                         quality reviewers used criteria different from ours when
                         determining if the letter format was appropriate. For
                         example, quality reviewers did not consider examiners
                         referring to taxpayers by their first name as inappropriate.
                         However, the IRM specifically prohibits employees from
                         this practice. In November 2004, Innocent Spouse Program
                         management initiated actions to enhance the
                         professionalism of correspondence by sending an alert
                         instructing examiners to not refer to taxpayers by their first
                         name. Examiners had made these types of errors in eight of
                         the cases we reviewed, but quality reviewers had not
                         identified and reported any of them.
                         We believe these incorrect instructions have resulted in an
                         overstatement of the professionalism rate in the relief
                         request cases processed. During the period under review,
                         the quality review results reports indicated that, in
                         92 percent of the cases, examiners used the correct format,
                         grammar, spelling, punctuation, and letter type in
                         correspondence with taxpayers, compared to our sample
                         results indicating a 66 percent accuracy rate on these same
                         issues.
                         According to the IRS Embedded Quality Training Guide,
                         quality reviews that are incomplete or inadequate leave
                         employees without a clear understanding of how well they
                         are doing and can lead to a distortion in measuring the
                         program quality. In addition, recognizing and recording
                         errors according to the attribute definition is important for
                                                                                Page 13
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service

                         the IRS in achieving its quality goals, as well as avoiding
                         outside agency scrutiny.
                         To ensure the accuracy of the quality reviewers’ work, the
                         Innocent Spouse Quality Review Manager had evaluated
                         two cases from each quality reviewer per month. However,
                         these evaluations were not an effective control to ensure
                         reviewers were adequately charging errors because
                         Innocent Spouse Program management had established a
                         deviation to the quality standards for professionalism of the
                         correspondence sent to taxpayers.
                         When errors are not properly charged, error trends may go
                         unchecked and Innocent Spouse Program management will
                         not have the opportunity to improve the quality of
                         correspondence with taxpayers. We estimate potentially
                         2,044 taxpayers may have received written communications
                         that did not have the correct format, grammar, spelling,
                         punctuation, or letter type.21 Unprofessional correspondence
                         may give taxpayers a negative impression of the skills and
                         abilities of the examiners that reviewed their claims.

                         Recommendations

                         The Commissioner, W&I Division, should:
                         2. Revise quality reviewer guidelines to clarify the policy
                            that quality reviewers should always charge an error
                            when employees use unclear or inappropriate language
                            in taxpayer correspendence, regardless of whether
                            taxpayers may still understand the the overall intent of
                            the letter.
                         Management’s Response: Review guidelines were revised
                         to advise reviewers to charge an error if the name, address,
                         tax years, Social Security Number, format, grammar,
                         spelling, punctuation, or letter type were incorrect,
                         regardless of whether taxpayers may understand the overall
                         intent of the letter. The Innocent Spouse Operations
                         Manager now performs a sample review of letters, prior to
                         mailing, to ensure the letters are clear and professional.

                         21
                           This estimate is based on applying our sample error rate to the
                         6,085 closed taxpayer cases processed by the CCISO during the period
                         of November 1, 2003, through April 10, 2004.
                                                                                     Page 14
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service

                         3. Assess the effectiveness of the current monthly case
                            review process in ensuring quality reviewers’ work is
                            being consistently and accurately recorded, make
                            enhancements as warranted, and establish a follow-up
                            review process to confirm the effectiveness of any
                            enhancements made to ensure quality reviewers are
                            recording all errors.
                         Management’s Response: Management will conduct a
                         semiannual assessment of previously reviewed cases to
                         ensure the Quality Reviewers are being consistent and
                         accurately applying the quality attributes.




                                                                            Page 15
         The Innocent Spouse Centralized Review Function Ensured Accurate Relief
            Determinations, but Improvements Could Increase Customer Service

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine whether the Innocent Spouse Centralized
Review function effectively monitors, measures, and improves the quality of work in relief
determinations.1 Specifically, we focused on the accuracy and timeliness of relief determinations
and the quality of correspondence sent to taxpayers. To accomplish this objective, we:
I.       Evaluated whether the Innocent Spouse Centralized Review function effectively monitors
         and measures the accuracy of claim determinations to ensure compliance with Internal
         Revenue Code Sections (I.R.C. §) 6015(b), (c), and (f) (2000); I.R.C. § 66(c) (2000); and
         I.R.C. § 6013 (2002) requirements.
         A. Interviewed Innocent Spouse Program management and obtained documentation to
            determine the Internal Revenue Service (IRS) processes used to identify,
            sample/select, and quality review relief request cases.
         B. Selected a statistical sample of 128 cases from the population of 216 closed cases the
            Innocent Spouse Centralized Review function had quality reviewed during the period
            November 1, 2003, through April 10, 2004.2 Our sample size was determined based
            on a 95 percent confidence level, an expected error rate of 8 percent, and a precision
            of +3 percent. A statistical sample was taken because we wanted to estimate the
            number of taxpayers that may have received incorrect determinations.
         C. Reviewed our sample of closed quality-reviewed cases to determine the accuracy of
            the quality reviewer’s evaluation of the examiner’s compliance with the appropriate
            tax laws and internal procedures when making a determination on a relief claim.
         D. Compared the results of our review with the information in the Quality Review
            Database (QRDb)3 for our specific cases and for the overall quality-reviewed
            population to determine whether the Innocent Spouse Centralized Review function’s
            error rate differed significantly from our error rate.




1
  Our review focused on the adequacy of the determination process for those cases that met the basic relief eligibility
qualifications. It did not include an assessment of the accuracy of the “first-read” screening process or the case
closing process.
2
  We did not assess the validity of the sampling technique used by and the sample size selected by the Innocent
Spouse Centralized Review function.
3
  The QRDb is used to capture the results of a quality review. It is used to collect a synopsis of the employee’s
actions, compare the employee’s performance to IRS guidelines and procedures, and generate reports so the results
of the review can be shared with the employee and identify positive or negative performance trends.
                                                                                                              Page 16
      The Innocent Spouse Centralized Review Function Ensured Accurate Relief
         Determinations, but Improvements Could Increase Customer Service

      E. Discussed the variations with Innocent Spouse Program management to obtain
         agreement to facts and their potential cause. Specifically, we:
         1. Determined whether Innocent Spouse Program management conducted
            managerial reviews of the quality reviewers’ work to ensure accuracy and
            consistency.
         2. Determined whether Innocent Spouse Program managers held periodic reviewer
            meetings to promote consistency of review results.
         3. Evaluated whether adequate training was provided to the quality reviewers to
            enable them to effectively verify the accuracy of the relief determinations.
         4. Evaluated whether staffing levels and rotations affected the adequacy of the
            reviews.
         5. Calculated from our statistical sample the number of taxpayers affected by the
            quality reviewers not evaluating the examiners’ compliance with the appropriate
            tax laws and internal procedures when making a determination on a relief claim
            and projected the results to the overall population of cases that met basic relief
            eligibility qualifications.
      F. Discussed with Innocent Spouse Program management any high error rate trends in
         our sampled accuracy quality attributes that were also identified by the Innocent
         Spouse Centralized Review function to determine what steps have been taken by
         management to correct them.
II.   Evaluated whether the Innocent Spouse Centralized Review function effectively monitors
      and measures the professionalism of the correspondence sent to taxpayers.
      A. Reviewed the sample cases for professionalism of the correspondence sent to
         taxpayers and compared the results of our review with the information in the QRDb
         for our specific cases and for the overall quality-reviewed case population.
      B. Discussed any significant variations between our error rate and the Innocent Spouse
         Centralized Review function’s error rate with Innocent Spouse Program management
         to obtain agreement to facts and their potential cause. Specifically, we:
         1. Evaluated whether adequate training was provided to the quality reviewers to
            enable them to effectively evaluate the professionalism of correspondence in the
            Innocent Spouse Program.
         2. Evaluated whether staffing levels and rotations affected the adequacy of reviews.
         3. Calculated from our statistical sample the number of taxpayers affected by the
            Innocent Spouse Centralized Review function not identifying unprofessional
            correspondence sent to taxpayers during the determination process and projected
            the results to the overall population of cases that met basic relief eligibility
            qualifications.
                                                                                        Page 17
       The Innocent Spouse Centralized Review Function Ensured Accurate Relief
          Determinations, but Improvements Could Increase Customer Service

III.   Evaluated whether the Innocent Spouse Centralized Review function effectively monitors
       and measures the timeliness of the relief determination process.
       A. Reviewed the sample cases for timeliness and compared the results of our review to
          the information in the QRDb for our specific cases and for the overall
          quality-reviewed case population.
       B. Discussed any significant variations between our error rate and the Innocent Spouse
          Centralized Review function’s error rate with Innocent Spouse Program management
          to obtain agreement to facts and the cause of any unexplained periods of inactivity.
          Specifically, we:
          1. Evaluated whether adequate training was provided to the quality reviewers to
             enable them to effectively evaluate the timeliness of actions taken in the
             Innocent Spouse Program.
          2. Evaluated whether staffing levels and rotations affected the adequacy of the
             reviews.
          3. Calculated from our statistical sample the number of taxpayers affected by the
             Innocent Spouse Centralized Review function not identifying untimely actions
             during the determination process and projected the results to the overall
             population of cases that met basic relief eligibility qualifications.
       C. Discussed with Innocent Spouse Program management any high error rate trends in
          our sampled timeliness quality attributes that were also identified by the Innocent
          Spouse Centralized Review function to determine what steps have been taken by
          management to correct them.




                                                                                        Page 18
       The Innocent Spouse Centralized Review Function Ensured Accurate Relief
          Determinations, but Improvements Could Increase Customer Service

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Kristi Larson, Lead Auditor
David Hartman, Senior Auditor
Sharon Summers, Senior Auditor
Julia Tai, Senior Auditor
Jean Kao, Auditor
Lynn Ross, Auditor




                                                                                         Page 19
       The Innocent Spouse Centralized Review Function Ensured Accurate Relief
          Determinations, but Improvements Could Increase Customer Service

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Acting Director, Strategy and Finance SE:W:S
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Field Director, Compliance Services (Andover) SE:W:CP:CS:AN
Chief, Headquarters Discretionary Examination SE:W:CP:RC:EX(DISCR)
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 20
        The Innocent Spouse Centralized Review Function Ensured Accurate Relief
           Determinations, but Improvements Could Increase Customer Service

                                                                                   Appendix IV


                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
   •   Taxpayer Burden – Actual; 61 taxpayers affected (see page 9).
Methodology Used to Measure the Reported Benefit:
Based on our sample of 128 closed cases the Innocent Spouse Centralized Review function had
quality reviewed during the period November 1, 2003, through April 10, 2004:
   •   8 taxpayers were affected by examiners not addressing all of the additional issues raised
       by the taxpayer.
   •   3 taxpayers were affected by examiners not addressing all open IRS issues when
       considering the cases.
   •   50 taxpayers were affected by examiners not sending all of the interim contact letters.
Total number of taxpayers in our sample burdened by inadequate customer service between
November 1, 2003, and April 10, 2004: 8 + 3 + 50 = 61 taxpayers.
Type and Value of Outcome Measure:
   •   Taxpayer Burden – Actual; 52 taxpayers affected (see page 11).
Methodology Used to Measure the Reported Benefit:
Based on our sample of 128 closed cases the Innocent Spouse Centralized Review function had
quality reviewed during the period November 1, 2003, through April 10, 2004:
   •   9 taxpayers were affected by examiners not always using clear and appropriate language
       in written correspondence.
   •   43 taxpayers were affected by examiners not always using the correct format, grammar,
       spelling, punctuation, or letter type in correspondence with taxpayers.
Total number of taxpayers in our sample burdened by receiving unprofessional correspondence
between November 1, 2003, and April 10, 2004: 9 + 43 = 52.




                                                                                          Page 21
        The Innocent Spouse Centralized Review Function Ensured Accurate Relief
           Determinations, but Improvements Could Increase Customer Service

                                                                                      Appendix V


                                   Types of Taxpayer Relief

According to the Internal Revenue Service (IRS) publication, Innocent Spouse Relief (and
Separation of Liability and Equitable Relief) (Publication 971), many married taxpayers choose
to file a joint tax return because of certain benefits this filing status allows. However, both
taxpayers are jointly and individually responsible for the tax and any interest or penalty due on
the joint return, even if they later divorce. This is true even if a divorce decree states a former
spouse will be responsible for any amounts due on previously filed joint returns. One spouse
may be held responsible for all the tax due, even if the other spouse earned all the income. In
some cases, a spouse (or former spouse) will be relieved of the tax, interest, and penalties on a
joint tax return. The Internal Revenue Code Sections (I.R.C. §) 6015(b), (c), and (f) (2000)
provide for three types of relief available to taxpayers who file a joint tax return.
   1. Innocent Spouse Relief – I.R.C. § 6015(b).
   2. Relief by Separation of Liability – I.R.C. § 6015(c).
   3. Equitable Relief – I.R.C. § 6015(f).
Married taxpayers who did not file a joint tax return and live in community property states may
qualify for relief under I.R.C. § 66(c) (2000).
   1. Relief From Liability Arising From Community Property Law – I.R.C. § 66(c)).
Innocent Spouse Relief – I.R.C. § 6015(b): A taxpayer can be relieved of responsibility for
paying tax, interest, and penalties if his or her spouse (or former spouse) improperly reported
items or omitted items on their joint tax return. However, the taxpayer is jointly and individually
responsible for any tax, interest, and penalties that do not qualify for relief. To qualify for
innocent spouse relief, a taxpayer must establish the following:
   •   A joint tax return was filed that had an understatement of tax due to erroneous items of
       his or her spouse (or former spouse).
   •   At the time the taxpayer signed the joint tax return, he or she did not know, and had no
       reason to know, there was an understatement of tax.
   •   Taking into account all the facts and circumstances, it would be unfair to hold the
       taxpayer liable for the understatement of tax.
The taxpayer must request relief within 2 years from the date of the first collection activity
involving the taxpayer after July 22, 1998. A request for innocent spouse relief will not be




                                                                                             Page 22
         The Innocent Spouse Centralized Review Function Ensured Accurate Relief
            Determinations, but Improvements Could Increase Customer Service

granted if the IRS proves the taxpayer and his or her spouse (or former spouse) transferred
property to one another as part of a fraudulent scheme.1
Relief by Separation of Liability – I.R.C. § 6015(c): Under this type of relief, the taxpayer
allocates (separates) the understatement of tax2 (plus interest and penalties) on his or her joint
return between the taxpayer and his or her spouse (or former spouse). The understatement of tax
allocated to the taxpayer is generally the amount for which he or she is responsible. This type of
relief is available only for unpaid liabilities resulting from understatements of tax. Refunds are
not allowed. To request relief by separation of liability, the taxpayer must have filed a joint
return and met either of the following requirements at the time he or she filed the Request for
Innocent Spouse Relief (Form 8857):
    •    The taxpayer is no longer married to, or is legally separated from, the spouse with whom
         he or she filed the joint return for which he or she is requesting relief. (Under this rule, a
         taxpayer is no longer married if he or she is widowed.)
    •    The taxpayer was not a member of the same household as the spouse with whom he or
         she filed the joint return at any time during the 12-month period ending on the date he or
         she filed the Form 8857.
If the requesting spouse meets all of the requirements of I.R.C. § 6015(c) and did not transfer
property to avoid tax, he or she would be eligible for relief unless the IRS can establish the
requesting spouse had actual knowledge of the item giving rise to the deficiency. The taxpayer
must request relief within 2 years from the date of the first collection activity involving the
taxpayer after July 22, 1998. The taxpayer must also establish the basis for allocating the
erroneous items.
Equitable Relief – I.R.C. § 6015(f): If the taxpayer does not qualify for innocent spouse relief
or relief by separation of liability, the taxpayer may still be relieved of responsibility for a
portion or the entire amount of tax, interest, and penalties through equitable relief. Unlike
innocent spouse relief or relief by separation of liability, the taxpayer can receive equitable relief
from an understatement of tax or an underpayment of tax.3
The taxpayer must meet all of the following requirements in order to be eligible for consideration
for equitable relief under I.R.C. § 6015(f):
    •    The taxpayer filed a joint return for the tax year.
    •    Relief is not already available under I.R.C. § 6015(b) or (c).




1
  A fraudulent scheme includes a scheme to defraud the IRS or another third party, such as a creditor, former spouse,
or business partner.
2
  An understatement of tax is generally the difference between the total amount of tax that should have been shown
on the tax return and the amount of tax that was actually shown on the tax return.
3
  An underpayment of tax is an amount of tax the taxpayer properly reported on the tax return but did not pay.
                                                                                                            Page 23
            The Innocent Spouse Centralized Review Function Ensured Accurate Relief
               Determinations, but Improvements Could Increase Customer Service

       •   The taxpayer must request relief within 2 years from the date of the first collection
           activity involving him or her after July 22, 1998.
       •   The income tax liability from which the taxpayer seeks relief must be attributable to an
           item of the spouse (or former spouse) with whom he or she filed the joint return. The
           item cannot be attributable to the taxpayer unless one of the following applies:
                o An item is attributable to the taxpayer solely due to community property law.
                o An item can be shown to be nominally owned by the taxpayer.
                o Funds intended for the payment of tax were misappropriated by the taxpayer’s
                  spouse (or former spouse) for his or her own benefit. The IRS may grant relief to
                  the extent of the misappropriated funds taken by the taxpayer’s spouse (or former
                  spouse).
                o The taxpayer establishes he or she was the victim of abuse prior to the time the
                  return was signed, and that, as a result of the prior abuse, he or she did not
                  challenge the treatment of any items on the return for fear of retaliation by his or
                  her spouse (or former spouse).
       •   The taxpayer and his or her spouse (or former spouse) did not transfer assets to one
           another as part of a fraudulent scheme.
       •   The taxpayer did not receive a transfer of disqualified assets4 from his or her spouse (or
           former spouse).
       •   The taxpayer did not file or fail to file his or her return with the intent to commit fraud.
If any of the above eligibility requirements are not satisfied, the IRS will deny the request for
equitable relief. However, if the taxpayer meets all of the eligibility requirements, the IRS will
consider the following qualifying factors in their decision to grant or deny relief under
I.R.C. § 6015(f).
Under I.R.C. § 6015(f), the IRS will grant equitable relief for underpayment of tax if:
       •   It would be inequitable to hold the taxpayer liable for the unpaid tax liability as reported
           on the return; and
       •   The taxpayer meets all of the following conditions.
                o The taxpayer is divorced, separated, widowed, or lived apart from the other
                  spouse for the 12 months prior to the date of filing the request.
                o The taxpayer had a reasonable belief the tax was paid or would be paid at the time
                  he or she signed the return.



4
    Assets that are transferred for the principal purpose of avoiding tax or avoiding the payment of tax.
                                                                                                            Page 24
         The Innocent Spouse Centralized Review Function Ensured Accurate Relief
            Determinations, but Improvements Could Increase Customer Service

             o Economic hardship would result if relief is not granted.
If the taxpayer does not qualify for equitable relief based on the qualifying factors for the
underpayment of tax, the IRS may still grant relief under I.R.C. § 6015(f) if the taxpayer meets
all of the eligibility requirements and if he or she:
    •    Did not meet the qualifying factors for the underpayment of tax, or
    •    Had understatement liabilities that did not meet I.R.C. § 6015(b) or (c) requirements.
When considering equitable relief under this criterion, the IRS considers the following.
    •    Marital status.
    •    Economic hardship.
    •    The spouse’s legal obligation to pay.
    •    No knowledge or reason to know.
    •    Significant benefit.
    •    Compliance with income tax laws.
    •    Abuse.
    •    Mental or physical health.
Relief From Liability Arising From Community Property Law – I.R.C. § 66(c): The
I.R.C. § 66(c), as amended by the IRS Restructuring and Reform Act of 1998,5 allows equitable
relief for individuals filing separate returns in a community property state. This provision is
similar to the provision under I.R.C. § 6015(f), which allows a taxpayer to request relief when it
is determined to be inequitable to hold him or her liable for any understatements or
underpayments of tax.
The amended provision under I.R.C. § 66(c) is available to taxpayers who do not:
    •    File joint returns and live in community property states.
    •    Qualify for separation of liability under I.R.C. § 66(a) (2000).6
    •    Benefit from an I.R.C. § 66(b) (2000)7 determination.



5
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
6
  I.R.C. § 66(a) provides an exception to the general rule that community income is taxed one-half to each spouse
living in a community property state. This is a special rule that generally permits spouses to allocate earned income
to the spouse who earned the income if certain statutory requirements are met.
7
  I.R.C. § 66(b) allows the Secretary of the Treasury to disregard community property laws by denying the benefits
of income splitting between the spouses and assessing additional tax against the spouse earning the income.
                                                                                                            Page 25
        The Innocent Spouse Centralized Review Function Ensured Accurate Relief
           Determinations, but Improvements Could Increase Customer Service

   •   Qualify for the traditional innocent spouse relief under I.R.C. § 66(c).
The taxpayer must meet all of the following requirements in order to be eligible for consideration
for equitable relief from liability under I.R.C. § 66(c).
   •   The taxpayer did not file a joint return for the tax year.
   •   The taxpayer must request relief within 2 years from the date of the first collection
       activity involving him or her after July 22, 1998.
   •   The income tax liability from which the taxpayer seeks relief must be attributable to an
       item of the spouse (or former spouse) with whom he or she filed the joint return. The
       item cannot be attributable to the taxpayer unless one of the following applies:
           o An item is attributable to the taxpayer solely due to community property law.
           o An item can be shown to be nominally owned by the taxpayer.
           o Funds intended for the payment of tax were misappropriated by the taxpayer’s
             spouse (or former spouse) for his or her own benefit. The IRS may grant relief to
             the extent of the misappropriated funds taken by the taxpayer’s spouse (or former
             spouse).
           o The taxpayer establishes he or she was the victim of abuse prior to the time the
             return was signed, and that, as a result of the prior abuse, he or she did not
             challenge the treatment of any items on the return for fear of retaliation by his or
             her spouse (or former spouse).
   •   The taxpayer and his or her spouse (or former spouse) did not transfer assets to one
       another as part of a fraudulent scheme.
   •   The taxpayer did not receive a transfer of disqualified assets from his or her spouse (or
       former spouse).
   •   The taxpayer did not file or fail to file his or her return with the intent to commit fraud.
If any of the above eligibility requirements are not satisfied, the IRS will deny the request for
relief. If the taxpayer meets all of the eligibility requirements, then the following qualifying
factors would be considered in the decision to grant or deny relief under I.R.C. § 66(c).
   •   Marital status.
   •   Economic hardship.
   •   The other taxpayer’s legal obligation to pay.
   •   No knowledge or reason to know.
   •   Significant benefit.
   •   Compliance with income tax laws.
                                                                                              Page 26
    The Innocent Spouse Centralized Review Function Ensured Accurate Relief
       Determinations, but Improvements Could Increase Customer Service

•   Abuse.
•   Mental or physical health.




                                                                          Page 27
            The Innocent Spouse Centralized Review Function Ensured Accurate Relief
               Determinations, but Improvements Could Increase Customer Service

                                                                                                        Appendix VI


                                   Attribute Accuracy Rate Comparison

The following table compares the cumulative Innocent Spouse Quality Review accuracy rates for
selected attributes1 with the results of our sample of closed quality-reviewed cases for the period
November 1, 2003, through April 10, 2004.
                                     Table 1: Attribute Accuracy Rate Comparison

                                                                            Cumulative            TIGTA2 Sample
    Attribute              Attribute Name – Definition                   Innocent Spouse          Accuracy Rate
                                                                          Quality Review           (Percentage)
                                                                          Accuracy Rate
                                                                           (Percentage)
                                           Claim Determination Accuracy
      003        Taxpayer Issue(s) Identified/Addressed – The                    64                     47
                 examiner properly identified and addressed other
                 issues identified by the taxpayer.
      020        Potentially Abusive Non-Electing Spouse                         99                     99
                 (PANES) – The examiner properly determined
                 whether the case involved a PANES.
      302        Workpapers Support Conclusion – The examiner                    92                     92
                 properly prepared workpapers to support the
                 conclusion of the case.
      308        Innocent Spouse/Determine Inequitability – The                  99                     100
                 examiner developed the various factors in
                 determining equitability.
      403        Interpreted/Applied Tax Law Correctly – The                     96                     98
                 examiner interpreted and applied the tax law
                 correctly to resolve the taxpayer’s inquiry.
      405        Written Tax Law Response – The examiner                         99                     96
                 communicated all relevant and necessary tax law
                 facts and included any relevant and necessary
                 assumptions to answer the taxpayer’s
                 question(s).
      702        Identified/Provided Appeal Rights or Statutory                  87                     83
                 Letters – The examiner identified, addressed,
                 and/or provided appeal rights or statutory letters.




1
    An attribute represents a task an employee is required to perform to do his or her job correctly.
2
    Treasury Inspector General for Tax Administration.
                                                                                                              Page 28
            The Innocent Spouse Centralized Review Function Ensured Accurate Relief
               Determinations, but Improvements Could Increase Customer Service

                                                                         Cumulative            TIGTA2 Sample
    Attribute             Attribute Name – Definition                 Innocent Spouse          Accuracy Rate
                                                                       Quality Review           (Percentage)
                                                                       Accuracy Rate
                                                                        (Percentage)
      708       Addressed Full Scope of Internal Revenue                      50                      25
                Service (IRS) Issues – The examiner addressed
                all applicable open IRS issues when considering
                the full scope of the call/case.
      710       Employee Case Determination – The examiner                    85                      91
                completed the required case documentation per
                Internal Revenue Manual (IRM)3 guidelines.
      715       Correct/Complete Response/Resolution – The                    94                      94
                examiner provided the taxpayer with the correct
                response or resolution to his or her case or issue.
                                            Professionalism Accuracy
      801       Clear/Professional Written Communication –                    98                      93
                The examiner used clear and appropriate
                language with no jargon to ensure written
                communication is complete.
      805       Courteous (Paper) – The examiner provided                    100                      98
                courteous service to the taxpayer via his or her
                correspondence.
      809       Correspondence Format – The examiner used the                 92                      66
                correct format, grammar, spelling, punctuation,
                and letter type in his or her correspondence with
                the taxpayer.
                                               Timeliness Accuracy
      901       Interim Contacts – The examiner sent all the                  46                      48
                interim contact letters as required by the IRM.
      904    Efficient Response/Resolution and IRM Time                  98                        89
             Periods Met – The examiner met all the IRM
             time periods and the case actions taken were
             done in the most efficient manner that did not
             result in any unnecessary delay to resolve the
             taxpayer’s issue.
Source: Innocent Spouse Centralized Review function weekly quality review results reports for the period
November 1, 2003, through April 10, 2004, and our case reviews.



3
  The IRM contains policy, direction, and delegations of authority that are necessary to carry out IRS responsibilities
to administer tax law and other legal provisions.



                                                                                                              Page 29
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service

                                                                Appendix VII


            Management’s Response to the Draft Report




                                                                      Page 30
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service




                                                                      Page 31
The Innocent Spouse Centralized Review Function Ensured Accurate Relief
   Determinations, but Improvements Could Increase Customer Service




                                                                      Page 32
